No.________________
IN THE SUPREME COURT OF THE UNITED STATES
JAMES HILL,
PETITIONER,
- VS. UNITED STATES OF AMERICA,
RESPONDENT.
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Title 18, United States Code § 3006A(d)(6), Petitioner James Hill, asks leave
to file the accompanying Petition for Writ of Certiorari to the United States Court of Appeals for
the Third Circuit without prepayment of fees or costs and to proceed in forma pauperis.
Petitioner was represented by counsel appointed pursuant to Title 18, United States Code
§ 3006(a) in the Third Circuit Court of Appeals.
Respectfully submitted,
/s/ Keith M. Donoghue
KEITH M. DONOGHUE
Assistant Federal Defender
Counsel of Record
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
LEIGH M. SKIPPER
Chief Federal Defender
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Petitioner

